CERTIFICATE OF SERVICE
NO. 19-1231

19-1241

FCC et al.,
Petitioners,
v.
Prometheus et al.,
Respondents.

National Association of Broadcasters et al.,
Petitioners,
v.
Prometheus et al.,
Respondents.
___________

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury: That I am over the age of 18
years and am not a party to this action. I am an employee of the Supreme Court Press, the preparer of
the document, with mailing address at 1089 Commonwealth Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the Sue Wilson et al.
Amicus at Merits Stage in Support of Respondent(s), by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@USDOJ.gov
Counsel for FCC, et al.

Helgi C. Walker
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW.
Washington, DC 20036
(202) 955-8500
hwalker@gibsondunn.com
Counsel for National Association of Broadcasters
Ruthanne Mary Deutsch
Deutsch Hunt, PLLC
300 New Jersey Ave., NW., Suite 900
Washington, DC 20001
(202) 868-6915
rdeutsch@deutschhunt.com
Counsel for Prometheus Radio Project; Media Mobilizing
Project; Free Press; Office of Communication, Inc. of the
United Church of Christ, et al.

Jack N. Goodman
Law Offices of Jack N Goodman
1200 New Hampshire Ave, NW., Suite 600
Washington, DC 20036
(202) 776-2045
jack@jackngoodman.com
Counsel for Independent Television Group

Dennis Lane
Stinson LLP
1775 Pennsylvania Ave., NW., Suite 800
Washington, DC 20006
(202) 572-9906
dennis.lane@stinson.com
Counsel for Multicultural Media, Telecom and Internet
Council and the National Association of Black Owned
Broadcasters, Inc.

Lucas DeDeus
December 23, 2020
SCP Tracking: Faulkner-12770 Coit Road, Suite 720-Cover Dark Green

